Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




ACQUISITION COSTS OF PROSTHETIC
       INTRAOCULAR LENSES




                MARCH 1994
                                        OFFICE OF INSPECTOR GENERAL

              The mission of the Office of Inspector   General (OIG), as mandated by Public Law 95-452, as
              amended, is to protect the integrity of the Department    of Health and Human Setices’      (HHS)
              programs as well as the health and welfare of beneficiaries served by those programs.     This
              statutory mission is carried out through a nationwide network of audits, investigations,   and
              inspections conducted by three OXG operating components:        the Office of Audit Services, the
              Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
              the Secretary of HHS of program and management problems and recommends courses to
         ,-   correct them.

                                            OFFICE OF AUDIT SERVICES

              The OIGS Office of Audit Services (OAS) provides all auditing sefic= for .HH$ either by
              conducting audits with its own audit resources or by overseeing audit work ‘done by others.
              Audits examine the performance     of HHS programs and/or its grantees and contractors  in
              carrying out their respective responsibilities and are intended to provide independent
              assessments of HHS programs and operations in order to reduce waste, abuse, and
              mismanagement and to promote economy and efficiency throughout the Department.

                                            OFFICE OF INVESTIGATIONS

              The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
              investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
              unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
              administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
              control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                                OFFICE OF EVALUATION AND INSPECTIONS

              The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
              program evaluations (called inspections) that focus on issues of concern to the Department,
              the Congress, and the ,public. The findings and recommendations contained in these inspection
              reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
    ,’        and effectiveness of departmental programs. This report was prepared in the Chicago regional
.        .    office under the direction of WNiam C. Moran, Regional Inspector General and Natalie A.
              Can, Deputy Regional Inspector General. Project staf~

              CHICAGO
                                 lzEADQuARTERs
               PHILADELPHIA

              John M. Traczytq Project Leader
         Barbara R. Tedesco
          Joy Quill

              Suzanne G. Johnson
                      W. Mark Krushat
             Robert A. Vko

              Thomas Komaniecki
                       Wayne A Powell
              Nancy J. Motyneaux

                                                                                    Linda M.Ragone

              BOS’R3N                                  DALLAS
                      RobertA Baiocco

              TheodoreT. Watt                          Frank Atmendarez
             Robert A Katz


              SANFRANCISCO
                            ATLANTA
                      NEw YORK

              Paul Gottlober
                          Jacqueline .4mtrews
          Joseph Corm

              Don Loeb
                                Chrk Koehler
                 Atari Meyer

              Brian PattiSon
                                                        Lucille Cop

                                                                                     Joseph Benkoski

                                           I
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




ACQUISITION COSTS OF PROSTHETIC
       INTRAOCULAR LENSES




            MARCH 1994   OEI4I5-92-O1O3O
FINDINGS

Intraocukw lenwx can be pumhased for km than $2(M.

On average, ASCS paid $126 per IOL in 1991 and are paying $112 for the same lenses
today. The OPDS paid $230 per IOL in 1991, over $100 more than ASCS. Today’s IOL
acquisition costs for OPDS have decreased to an average of $198 per lens, but this price
is nearly $86 more per IOL than that paid by ASCS.

The ability of pumhasem to secure a lowpice   for IOLS h not dkymdent on the number of
IOJQ purchased annually.

Contrary to expectations, our data show that the ability of purchasers to secure a low
price for IOLS did not depend on the number of IOLS purchased annually, had no
relationship to the type of lens technology purchased and did not depend on facility
location or size.

iUedicareh ability to obtain a fair price for IOih undkr todayb payment mechanisms is
probkvnatic, particukhrly in OPD settings.

In an effort to gain a competitive edge, many IOL vendors offer volume discounts,
rebates, loans, customized packages of related cataract surgical supplies and other
business arrangements. These incentives were equally distributed between the ASCS and
OPDS in our sample. Since Medicare pays ASCS a fixed fee for IOLS, the prices ASCS
pay and the business arrangements they have with IOL vendors have no immediate effect
on Medicare expenditures. Medicare pays OPDS for the costs they incur. Therefore,
Medicare is financially vulnerable to undisclosed business arrangements OPDS enter into
with IOL vendors.

Benejkiwy out-of-pocket apensm for catamct surgery with IOL implant are 2.5 to 3 times
greater in OPDS than in AS(X

Patient coinsurance for cataract extraction with IOL insertion averages $195 in ASCS
versus $586 in OPDS. Patients pay coinsurance on the total charges they incur for
services provided by an OPD. The amount of coinsurance an ASC can collect is limited
to 20 percent of Medicare’s allowed payment rate.


RECOMMENDATIONS

On June 18, 1993, the Principal Deputy Inspector General for the Office of Inspector
General testified before the Senate Appropriations Committee, Subcommittee on Labor,
Health and Human Services, Education and Related Agencies. At that hearing the
Subcommittee was notified that this study was nearing completion and that the data
collected for the study indicated that ASCS were paying about $126 for IOLS while



                                               ii
Medicare waspaying ASCs$200 per lens. That testimony andtheinformation          in this
report subsequently resulted in legislation reducing Medicare’s $200 fixed IOL payment
to $150.

At a $150 fixed IOL payment rate, we project that reduced payments to ASCS would
save the Medicare program over $18 million annually, and more than $90 million over 5
years. The change will also reduce beneficiary coinsurance payments to ASCS by $10 per
procedure or $3.6 million annually.

We project $9.7 million in OPD savings annually from this legislative change. We have
reservations about whether these OPD savings would actually materialize. Complexities
of the OPD cost reporting system coupled with opportunities for OPDS to shift costs or
increase charges, may totally erode any potential savings. Unlike beneficiaries who have
their cataract surgery with IOL implant performed in an ASC, patients of OPDS are
unlikely to see any change in their out-of-pocket expenses.


COMMENTS TO THE DRAFT REPORT

This report has been modified and program savings adjusted to reflect the Health Care
Financing Administration’s (HCFA’S) comments. The full text can be found in
Appendix B.

The most significant change to the report involved the deletion of our recommendation
that HCFA seek legislation that would enable them to establish a fixed payment level for
cataract surgery performed in OPDS that would bring OPD payments more in line with
ASC payments.

While we believe paying OPDS a fixed rate similar to ASCS to be the best interim
solution, HCFA felt that this report in itself did not present enough evidence or make a
convincing argument for such change. At this time, HCFA is continuing to pursue their
ongoing work to determine the best method of calculation and reimbursement for an
outpatient prospective payment system encompassing all outpatient procedures.

Should HCFA consider implementing an outpatient prospective payment system in
stages, we would encourage them to include cataract surgery with IOL insertion in the
first stage. Cataract surgery encompasses unique characteristics that distinguish it from
other outpatient procedures. It is the number one outpatient procedure paid by
Medicare. It is a procedure that is scheduled days or weeks in advance. It is essentially
an elective procedure. The beneficiary has control over whether to have the procedure
done and at what stage in the cataract development to have surgery, Access to facilities,
ophthalmic surgeons and follow up care is widely available.




                                              ...
                                              111
                       TABLE                   OF CONTENTS

                                                                                                              PAGE


EXE~               SuMMARY             . . . . . . ..""   """"""""""""""""""""""""""""""""1
                                                                                                                      1
llTI’IIODU~ON              .................................................
                                                                                                                       3
FINDINGS          ......................................................

 �    Intraocular lenses can be purchased for less than $200 . . . . . . . . . . . . . . . . . . . 3


 �    The ability of purchasers to secure a low price for IOLS

      is not dependent on the number of IOb purchased annually                              . . . . . . . . . . . . . . 4


  �   Medicare’sabfitY to obtain afahptice              for IOh under

      today’s payment mechanisms is problematic, particularly                                                        .4

      in OPD settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


  �   Medicare beneficia~ copayments for cataract extraction

      with IOLinsefiion are almost 2.5 to 3timesgreater                     inOPDs                                      6

      than in Arcs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


 RECOMMEN_DAmONS                      ...........................................                                          8

 APPENDICES:

 A      &pndedMetitioloPYmdStititidMomation

 B:     Health tie   FkmtigA-tiation                          Ccmnenti

                           INTRODUCTION


PURPOSE

This study evaluates whether Medicare’s current payment policy for prosthetic intraocular
lenses (IOLS) is prudent.


BACKGROUND

Cataract extraction with IOL insertion is the most frequently performed procedure paid
by Medicare and accounts for approximately 6 to 8 percent of the Medicare outpatient
budget. The number of IOLS implanted in Medicare beneficiaries has increased steadily
over the last decade. In 1991, the Medicare program paid for an estimated 1.14 million
IOLS. Hospital outpatient departments (OPDS) account for two out of three of the IOLS
implanted in Medicare beneficiaries. Ambulatory surgical centers (ASCS) account for
most of the remaining IOL implants and about 2 percent of the implants were performed
in hospital inpatient or physician office settings.

In March 1986, the Office of Inspector General (OIG) issued a report which concluded
that Medicare payment policies encouraged inflated IOL prices. Discounts negotiated by
purchasers were not passed on to the Medicare program resulting in Medicare paying
double or triple the actual IOL purchase price.

In June 1990, the OIG conducted a follow-up study on Medicare’s reimbursement for
IOLS and, like the previous report, found that IOLS were widely available well below
Medicare payment level. Both reports concluded that a national cap for IOL payment
was needed to bring Medicare payment more in line with actual procurement costs.

The Consolidated Omnibus Budget Reconciliation Act of 1985 and the Omnibus Budget
Reconciliation Act of 1986 sought to correct the inequities fostered by Medicare payment
policies. These Acts reduced cataract surgery fees, limited IOL payment and attempted
to address Medicare payment inequities to ASCS and OPDS.

In an effort to control expenditures for IOL acquisition costs, Medicare’s current policy
limits IOL payment in ASCS. After beneficiaries meet their annual deductible, Medicare
pays 80 percent of the $200 fixed fee, established by the Health Care Financing
Administration (HCFA), to cover ASC IOL acquisition costs. Payment for the IOL is
included in Medicare’s ASC facility payment and is not an itemized charge on ASC
claims.

Hospital OPDS are paid on a cost basis. Payment for cataract surgery includes the IOL
and is based on the lower OR (1) charges, (2) cost, or (3) the blended rate. The blended
rate is equivalent to 58 percent of the ASC cataract surgery rate less deductible and


                                              1
coinsurance, plus 42 percent of the costs the OPD incurred less deductible and
coinsurance. Medicare pays for OPD services using interim payments and then
reconciles these interim payments with actual costs at the end of the cost reporting
period.

Payment for IOLS implanted during hospital inpatient cataract surgery is included in the
hospital’s DRG payment. Physicians who perform cataract surgery in their office are
paid for IOLS based on reasonable charge. The reasonable charge may not exceed the
actual acquisition cost for the IOL plus up to a 5 percent handling fee.


SCOPE and METHODOLOGY

A random sample of 361 Medicare patients was drawn from a 1 percent sample of the
1991 Medicare Part B Common Working File. A total of 326 IOL purchasers responded
to our survey.

An effort was made to contact each of the ophthalmic surgeons who operated on the 361
beneficiaries in the sample. The surgeons were asked to identi~ the IOL manufacturer
and model number. When the surgeon did not purchase the 10~ we contacted the
OPD, ASC or other purchaser for IOL cost and procurement information.

All respondents were asked to provide information about their business transactions with
IOL vendors. In addition to specific information about the IOL implanted in our
sampled Medicare beneficiary, IOL purchasers were asked to provide cost information
about all of the IOL models they purchased in 1991 and 1992. They were also asked to
provide information about the cost of IOLS they purchased and intended to purchase in
1993.

Respondents were contacted in person, through mail sumeys or over the telephone. In
some cases, the ophthalmologist had died or the facility or practice had been sold and
the medical records pertaining to the beneficiary in our sample could not be located.
Some surgeons and facilities chose not to participate in our study others were not
contacted because they were under investigation for fraud or abuse. A total of 35
potential IOL purchasers were dropped from the study for one or more of the above
reasons.

Survey responses and information collected from surgeons and facilities on the
beneficiary sample and for IOL purchases in 1991 and 1992 were entered into a data
base. This information was subsequently prepared for analysis by merging it with
information obtained from the Food and Drug Administration (FDA) on IOL
manufacturers suppliers and distributors, model numbers, and FDA approval dates.

A more complete discussion of the methodology used for this study can be found in
Appendix A. Appendix A also contains more detailed information on how the data and
projections presented in this report were determined.


                                              2
                                   FINDINGS


Findikg #I:   Ihtmocular knses can be pun%sed for kw than $200.

The surgeons and facilities purchasing IOLS reported
 that they spent between $30 and
$450 to secure the lenses implanted in our sampled
 beneficiaries. In 1991, the average
price paid was $198.


Considerable difference exists in the

price paid by ASCS and OPDS. The
                                 IOL COSTS
                                                                        1991 DATA
ASCS in our sample paid, on

average, $126 to secure the IOL
                                                       Lqend
implanted in our sampled beneficiary.       oPm
                                    � $150.00
                                                                                            ORLESS
The OPDS paid considerably more,
                              (14%)                � $150.01-$300.00
averaging $230 per IOL.
                                                            � ~~~ ~.oo
                                                   .,.:.x.:.:.:...,
                                                    .,..,,.,,,.,.,,,,,.,,
                                                           ,.,.,,,.,.,
                                                          .::.:,:.:.i.
                                                     ::?:::::*
                                                      ..:xm.,.,.~..
                                                        ,%.,.,:,:.:..
                                                        ASCS
                                                        ‘.:{:...
According to survey responses, nearly
                                        e         (17%)
9 out of 10 respondents still purchase ~w%)
the same IOL model they implanted
in 1991 in 1993. The same IOLS that                                                 (=)
cost on average $198 in 1991 are
being purchased in 1993 for an                       v                              1%)
average price of $172. As the table
below illustrates, OPDS are paying
less in 1993 than in 1991, but, on
average, OPDS pay nearly $86 more per IOL than ASCS.
Finding #2: l%e ability of pumhasem to secure a low prke for IOLJ k not dependent on
the number of IOLS pumhased aruuudly.

Contrary to expectations, our data show that the ability of purchasers to secure a low

price for IOLS did not depend on the number of IOLS purchased annually. When we

analyzed the data on all of the lenses our respondents purchased in 1991 and 1992, we

found that less than 3 percent of the variance in IOL prices can be explained by the

volume of lenses purchased.


When we analyzed our data on lens purchases, we found that OPDS affiliated with

hospitals having 100 beds or less had no problem securing IOLS at competitive prices.

As with our analysis of volume versus price, we found little correlation between bed size

and IOL prices.


Analysis of data and information provided by respondents show that the price negotiated

between purchaser and vendor was usually valid for all similar, if not all, IOL models in

the vendor’s product line. For example, a single price would be negotiated for all

poly(methyl methacrylate) or PMMA IOLS, all posterior chamber IOLS or all IOLS

except specific models.


The same data and information indicate that surgeons tended to use the same posterior

chamber IOL model for all of their patients. Surgeons deviated from their IOL of choice

only when an anterior chamber IOL was needed, when experimenting with trial lenses or

when the surgeon’s preferred IOL was contraindicated.  Some surgeons changed their

IOL preference when the lens they used was no longer offered by the vendor.


We also expected that newer lenses would be more costly than older model IOLS. When

we examined the acquisition costs of foldable ultraviolet absorbing silicone lenses we

found that they were available in prices ranging from $75 to $475. Our data also showed

that this 10~ which many consider to be the newest technology available, was being

purchased by ASCS for $125 or less.


Examination of the data on all IOLS purchased in 1991 and 1992 shows that vendors

charged purchasers whatever the market would bear for a particular model. For

example, one vendor sold a particular model for $100 to one purchaser and for $410 to

another purchaser. Of the seven purchasers of this IOL model, five paid more than $100

but less than $410. All of the purchasers bought at least 500 units of this particular

model in 1991 and 1992. The price paid for this IOL had no apparent correlation to the

volume of other products purchased from the vendor.



Finding #3: Mxlicareh abildy & obtain a fairpice for IOLJ undertodaykpayment
mechankm k problematic, particuk@ in OPD settings.

In an effort to gain a competitive edge, many IOL vendors offer volume discounts,
rebates, loans, customized packages of related cataract surgical supplies and other


                                             4
business arrangements. When we examined invoices,

contracts, agreements and other documents provided by           101+ PURCHASERS

our respondents, we found evidence to establish that 52               IU3CETVE

percent of the IOL purchasers had one or more of the            .. .. . . ..... ........... .....

following included in their IOL purchase:

                                                                Free
  �   Customized package deals in which other cataract           . ~Urg~al~u~~lie~

      related supplies and pharmaceuticals are included at       “viscoekistic

      no cost or provided at greatly reduced cost.               - pharmaceuticals

  �   Discounted microscopes and other surgical                  - IOU

      equipment and supplies.

  �   Volume discounts based on minimum purchase                D&cotuzted

                                                                 - lllicroscopes
      commitments.                                               - swgkal equipment

  �   Free IOLS or further price reductions after meeting        - smgkal blades

      certain volume level commitments.

  �   Loans, some of which appear to have been forgiven         Incentiws

      in later years.                                            - bans

  �   Frequent buyer points good toward the purchase of          - -h rebat~

      the vendor’s other product lines.                          - ilequent buyer points

  �   Free equipment and trial IOLS.

  �   Cash rebates on total IOL purchases.


The actual number of purchasers with a quid pro quo business arrangement with their
IOL vendor is probably closer to 75 or 80 percent. We believe the higher number to be
correct after examining all of the invoices and other documents submitted.

Some respondents did not provide conclusive evidence acknowledging their business
arrangement with their IOL vendor; the information they did provide fit the pattern of
business arrangements established horn files with more complete information. For
example, some respondents did not acknowledge in our survey that they had made
equipment purchases through their IOL vendor. No documentation to establish
conclusively that an equipment purchase was included in the IOL purchase price was
submitted. However, the IOL price reflected on invoices or other documents provided
fits the pattern of business established by IOL vendors. When complete information was
provided, this vendor’s pattern of business established that the purchaser’s IOL
acquisition cost included payment for more than the IOL itself.

While providers are required by law to disclose discounts and other incentives that affect
the costs they clainy discounts and other incentives have not always been passed on to
the Medicare program. We are concerned because the complexities of cost reporting still
leave the Medicare program vulnerable to financial harm from undisclosed business
arrangements OPDS enter into with IOL vendors.

Perhaps the most abusive practice we found involved IOLS purchased by an OPD that
were delivered to physicians who, in turn, resold them to the OPD at even higher prices.
Another, involved wasteful and unnecessary next day freight charges that the OPD


                                            5
insisted upon and routinely paid. Most cataract surgeries are scheduled days if not weeks

in advance. The IOLS used are taken horn stock on hand. There is no reason to pay

next day shipping charges for routine restocking. The most prevalent practices involved

inflated IOL prices in exchange for discounts on other vendor products and unbundling

of items included with the IOL purchase.


According to HCF& very few OPDS are subjected to full scale audits of the costs they

claim to have incurred to provide cataract extraction with IOL insertions. Fiscal

intermediaries complain of complex and often conflicting laws, regulations and rules that

make indepth audits time consuming and not cost effective. Providers voice the same

complaints. Cost reporting forms have not been changed to enable fiscal intermediaries

to effectively track the lesser of charges, costs or the blended rate for OPD cataract

surgery.


Vendor business arrangements with purchasers are customized to meet the buyer’s needs.

The arrangement may be purely financial such as a loan to purchase a piece of

equipment or to establish an operating suite. It may involve bundled cataract surgery

products from a single source or from multiple sources. The vendor’s stated value of any

item can vary considerably. The list price for equipment, supplies, IOLS and other items

is readily available but very few items offered by vendors are actually sold at list. The

cost to produce an IOL and the other items needed to perform cataract surgery is

unknown. Determining cost becomes more difficult as distributors and other third parties

add their profit margins to actual production costs. Eleven of our respondents reported

that the value of items they received with each IOL exceeded their IOL acquisition cost.


Arrangements may be one time events, short term (less than a year) or long term (one or

more years). They may be limited to IOL purchases or applied to other surgical or

facility supplies. They may be straight forward or backdoor arrangements such as rebates

paid to corporate offices or other third parties. Overall, they reflect business practices

common in the American economy. Attempts by Medicare to quantify the value of these

arrangements is extremely difficult, if not impossible.



Finding #4: M&am     benejkiary copayment for catumct exlnrction with IOL insertz”onare
25t03tirnesgreater inoPfithan    iil AsCk

After a beneficiary’s annual cash deductible has been satisfied, Medicare pays 80 percent
of the ASC prospective payment rate established by HCFA for cataract extraction with
IOL insertion. The beneficiary, or as is often the case the beneficiary’s secondary
insurance, is responsible for paying the remaining 20 percent. The beneficiary copayment
for services provided in ASCS is limited to the difference between the Medicare payment
and the total ASC fixed rate calculated by the carrier paying the claim. The fixed rate
calculation uses national payment rates established by HCFA to approximate the cost
incurred by ASCS in providing covered services. Each carrier adjusts the national
payment rate using the wage index value for the geographical area in which the ASC is
located. Areas with high wage levels receive a higher payment than ASCS located in


                                             6
areas with lower wage levels. Based on our sample, the average prospective rate
established by HCFA for ASC cataract extraction with IOL insertion in 1991 was $975.
On average, patients paid $195 in coinsurance to ASCS and the Medicare program paid
the remaining $780.

Hospital OPDS are not under the same billing constraints as ASCS. Patients pay
coinsurance on the total charges they incur. Our sample establishes that the average
charge for OPD cataract extraction with IOL insertion in 1991 was $2,928. On average,
OPD patients paid $586 in coinsurance in 1991, which amounts to $390 more than ASC
patients paid in the same year.

Medicare payments to OPDS are affected by the amount of coinsurance OPDS collect.
The greater the OPD charge to the patient the greater the patient coinsurance and the
lower the Medicare payment. Our data established that the average OPD charge to
patients for cataract surgery with IOL implant in 1991 was $2,928. The difference
between an OPD’S charges to patients and the actual costs they incur in providing OPD
services establishes the cost to charge ratio. Assuming the average cost to charge ratio
for OPDS to be 50 percent, we calculated that the average cost of providing cataract
surge~ in OPDS in 1991 was approximately $1,464.

Our data shows that on average, patients paid OPDS $586 in coinsurance for OPD
cataract surgery. This payment is deducted from the costs recognized by the program.
After the $586 coinsurance has been deducted from the $1,464 cost, Medicare paid, on
average, $878 per OPD procedure.

Currently, IOL costs are not paid separately from total cataract surgery costs. Nor is the
beneficiary copayment for the IOL calculated separately. If IOLS were paid separately,
the coinsurance on the IOL would be $40 in ASCS. In OPDS, the IOL coinsurance is 20
percent of the OPD charge for the lens. In our sample, OPDS charged beneficiaries an
average of $580 for an IOL. The beneficiary coinsurance on IOLS provided by OPDS in
1991, averaged $116, nearly 3 times greater than ASCS.




                                             7

                     RECOMMENDATIONS


On June 18, 1993, the Pticipal Depu~Inspector       General forthe Ofice of Inspector
General testified before the Senate Appropriations Committee, Subcommittee on Labor,
Health and Human Services, Education and Related Agencies. At that hearing the
Subcommittee was notified that this study was nearing completion and that the data
collected for the study indicated that ASCS were paying about $126 for IOLS while
Medicare was paying ASCS $200 per lens. That testimony and the information in this
report resulted in legislation to reduce Medicare’s $200 fixed IOL payment to $150. We
encourage HCFA to broaden the scope of that legislation by seeking an amendment to
the statute and regulations that would extend the $150 limit on IOLS to physicians who
perform cataract surgery in their office.

At a $150 fixed IOL payment rate, we project that reduced payments to ASCS would
save the Medicare program over $18 million annually, and more than $90 million over 5
years. The change will also reduce beneficiary coinsurance payments to ASCS by $10 per
procedure or $3.6 million annually.

We project $9.7 million in OPD savings annually from this legislative change. We have
reservations about whether these savings would actually materialize. Complexities of the
OPD cost reporting system coupled with opportunities for OPDS to shift costs or increase
charges, may totally erode any potential savings. Unlike beneficiaries who have their
cataract surgery with IOL implant performed in an ASC, patients of OPDS are unlikely
to see any change in their out-of-pocket expenses.


COMMENTS TO THE DRAFT REPORT

The Health Care Financing Administration (HCFA) commented on our draft report.
The report has been modified and program savings adjusted to reflect HCFA’S
comments. The full text can be found in Appendix B.

The most significant change to the report involved the deletion of our recommendation
that HCFA seek legislation that would enable them to establish a fixed payment level for
cataract surgery performed in OPDS that would bring OPD payments more in line with
ASC payments.

Until a comprehensive outpatient system can be developed we believe paying OPDS a
fixed payment rate similar to the rate paid to ASCS to be the best interim solution. The
HCFA felt that this report in itself did not present enough evidence or make a
convincing argument for such change. At this time, HCFA is continuing to pursue their
ongoing work to determine the best method of calculation and reimbursement for an
outpatient prospective payment system encompassing all outpatient procedures.

If HCFA should consider implementing a prospective payment system for outpatient


                                            8
semices in stages, we would encourage them to include cataract surgery with IOL in the
first stage. Cataract surgery encompasses unique characteristics that distinguish it from
other outpatient procedures. It is the number one outpatient procedure paid by
Medicare. It is a procedure that is scheduled days or weeks in advance. It is essentially
an elective procedure. The beneficiary has control over whether to have the procedure
done and at what stage in the cataract development to have surgery. Access to facilities,
ophthalmic surgeons and follow up care is widely available.




                                             9

APPENDIX                A




 Eqymded      Methodology
             and
  Statistical Information




           A-1
METHODOLOGY

A random sample of 361 Medicare beneficiaries who had cataract surgery with IOL
insertion performed in 1991 was drawn from a 1 percent sample of the Medicare Part B
Common Working File (CWF). Using CWF information, we identified the ophthalmic
surgeon for each patient in the sample.

An effort was made to contact each surgeon either in person, through the mail or over
the telephone.

We did not receive information from 8 ophthahnic surgeons:

  .    Five surgeons did not respond to our requests,
  .    Two were under investigation and were not contacted at the request of the Office
       of Investigations, and
  �    One could not be located.

A total of 353 ophthalmic surgeons (nearly 98 percent of the sample) responded to our
request for information.

Three beneficiaries were dropped from the sample for the following reasons reported by
the ophthalmic surgeon:

  .    The cataract procedure with IOL implant had actually been performed in 1990,
  �    One patient died and surge~ was aborted before lens implant, and
  .    One patient had a cataract removed but no lens was implanted.

Overall, we were able to identify, from surgeon records: (1) the IOL purchaser, (2) the
IOL manufacturer, (3) the IOL model number, and (4) the IOL serial number for 350 of
the 361 patients in our sample.

Using the information gained from surgeon records, we attempted to contact each IOL
purchaser (ASC, OPD or physician) to ascertain the cost of the IOL implant. We were
unable to secure a response to our request for information from 27 IOL purchasers:

  .    Twenty-one purchasers did not respond to our request for information,
  .    Three were under investigation and at the request of the OffIce of Investigations
       were not contacq
   .   Three could not be identified (the ophthalmic surgeon did not respond and
       information on hand was insufficient to ident~ the purchaser).




                                           A-2

Information was received from 326 IOL purchasers, representing 90 percent of the

sample. The information presented in this study was derived from the information we

received from these 326 IOL purchasers.


Each purchaser was asked to disclose the cost they incurred to procure the IOL

implanted in our sampled patient. They were also asked to provide a copy of the invoice

showing: (1) the IOL manufacturer, (2) the IOL model number, and (3) the IOL serial

number. Accuracy of reported IOL acquisition costs were verified by comparing

reported acquisition costs with the purchase prices shown on the purchase invoices.

Discrepancies between survey responses and the invoice price were documented for

analysis.



Finding #1


The IOL cost incurred by the 326 purchasers responding to our request for information

was entered into a data base for analysis. Arraying the data established that the IOLS

implanted in our sampled beneficiaries ranged in price from $30 to $450. The average

price paid was $198.


Analysis of IOL acquisition cost data by type of purchaser revealed that OPDS paid

significantly more for their IOLS than did the ASCS in our sample. On average, OPDS

paid $230 for each lens they implanted during 1991. The ASCS paid an average $126 per

lens during the same period.


Nine out of 10 (299 of 326) purchasers indicated that they were still purchasing the same

IOL model implanted in our sampled Medicare beneficiary. Information provided by

these purchasers established that the average price they paid for IOLS had decreased

between 1991 and 1993. The average cost of an IOL fell from $198 per lens in 1991 to

$172 per lens in 1993. The lowest price paid for an IOL in 1993 was $40 and the highest

price $450. The average price paid by ASCS declined from $126 to $112, while the

average price paid by OPDS declined from $230 to $198 per lens.



Finding #2

In addition to information about the IOL implanted in our sampled Medicare beneficiary,
all purchasers were asked to provide volume and cost data on all of the IOLS they
acquired in calendar years 1991 and 1992. Invoices and contracts provided by our
respondents were used to validate the awurq     of the reported costs. The information
provided was entered into a data base for analysis. Discrepancies between
invoices/contacts and reported data were documented and analyzed.

The 326 purchasers in our sample bought a total of 213,745 IOLS in 1991 and a total of
233,036 lenses in 1992. We calculated the mean and median for all lenses purchased in
1991 and 1992. The analysis of the 213,745 lenses purchased in calendar 1991 produced


                                          A-3
a mean of $121 for ASCS compared to our sample mean of $126. The same data set
produced a mean of $219 for OPDS compared to our sample mean of $230. Analysis of
the 233,036 IOLS purchased in 1992 revealed that the average IOL acquisition cost had
declined from 1991 levels for both ASCS and OPDS. This finding was consistent with the
results of our initial sample which showed that the average price paid to acquire an IOL
had fallen between 1991 and 1993 from $198 in 1991 to $173 in 1993.

Neither ASC or OPD variance in IOL prices was explained by the volume of lenses
purchased. We analyzed the data on all lenses purchased in 1991 and 1992 to determine
if a correlation existed between the volume of lenses purchased and acquisition cost.
Correlation analysis indicated that overall less than 3 percent (1991 R-square = 0.0289,
1992 R-square = 0.0274) of the variance in IOL prices was explained by the volume of
lenses purchased.

Analysis of the OPD data for 1991 and 1992 produced R-squares slightly higher than the
overall sample. R-squares for OPDS were 0.0566 for 1991 and 0.0483 for 1992 indicating
again little of the variance in IOL prices paid by OPDS was explained by the volume of
lenses they purchased. Additional analysis of the 1991 and 1992 OPD data revealed that
no correlation existed between the price OPDS paid for IOLS and the size of the
purchasing institution.

The   data   on all lenses   purchased     in 1991 and      1992 was further analyzed by merging it
with a data base containing Food and Drug Administration (FDA) approved IOLS. The
FDA data base contained information on all IOL model numbers approved by the FDA
for each manufacturer/distributor    and the year in which the IOL model received FDA
approval.1 Analysis of this data revealed the price paid for a particular lens model
varied significantly and that neither the attributes of the lens (Pm     hepatics etc.) nor
the number of years the lens had been on the market affected the price of the lens.


Finding #3

Providers are required by law to disclose discounts and other incentives that might affect
the costs they claim and the providers subsequent reimbursement from the Medicare
program. Several prior studies have attempted to make adjustments to the IOL costs
claimed by respondents by taking into account the value of free or discounted services
and supplies provided by IOL manufacturers and distributors. We made no such
adjustments to IOL acquisition costs reported by our respondents.




         4

         ‘ As of August 8, 1989 manufacturers could make certain model additions without FDA approval. These new
model numbers dld not require FDAapproval because they were essentialitythe same lens already approved by the FDA.
Likewise,manufacturers and distributors were not required to report new model numbers assigned lenses already approved
by the FDA.


                                                      A-4
We found evidence to establish that 169, or 52 percent, of our study respondents clearly
had business arrangements with IOL manufacturers, distributors and others that arguably
could have inflated the IOL acquisition price they reported to us. A number (76) of
respondents did not provide complete copies of their financial agreements with their IOL
vendors. The invoices and other information that these 76 respondents did provide
indicated that they might have business arrangements with IOL vendors similar to the
169 respondents who disclosed such arrangements. Overall, we concluded that 75
percent our respondents had business arrangements with one or more of their IOL
suppliers that might artificially inflate the cost they incurred in procuring IOLS. The
number climbs to nearly 80 percent when arrangements involving third parties are taken
into consideration.


Finding # 4

All of coinsurance amounts reported in this study were derived from the actual bills
submitted to the Medicare program by the OPDS and ASCS in our sample.

The ASC billing and payment information was readily obtained from the Part B history
contained in the common working file (CWF) from which we drew our sample. The
ASC patient deductibles and coinsurance were determined by subtracting program
payments from the recognized ASC facility charge shown on the CWF.

The ASC data in the CWF indicated that the average ASC allowed charge for the
beneficiaries in our sample was $975. The data also established that beneficiaries paid,
on average, $195 in coinsurance to ASCS. On average the Medicare program paid $780
to ASCS for each cataract procedure performed in 1991.

To determine what OPDS were charging patients for cataract surgery with IOL implant
we used information that we obtained from the OPDS that responded to our sumey. All
of the HOPDS in our sample were asked to provide a copy of the itemized bill they
provided to the Medicare patient in our sample. They were also asked to provide a copy
of the bill that they submitted to Medicare for payment. This information was entered
into a data and when analyzed revealed that on average:

       1)     OPDS charged $2,928 for cataract surgery with IOL implant in 1991, and
       2)     Medicare beneficiaries paid, on average, $586 in coinsurance.


SAVINGS PROJECTIONS

Our sampling of the CWF indicated that approximately 1.14 million cataract procedures
with IOL implant were performed in calendar year 1991. Of the 361 beneficiaries in our
sample, 238 (66 percent) had cataract surgery performed in an OPD; 114 (32 percent)
had surgery in an ASC. The remaining 9 beneficiaries (2 percent) were classified as



                                          A-5

“other or unknown” and includes beneficiaries who had surgery performed while hospital
inpatients or in a physician’s office.


JUediMre l+vgmm Savings Fmm Changes to ASC P~

The legislation enacted by Congress would not change the current method used by
Medicare to pay ASCS for cataract extraction with IOL implant. The ASC payment
method adds the maximum allowable amount for an IOL to the geographically adjusted
standard overhead amount or payment group. In 1991, $200 (the maximum allowable for
an IOL) was added to the payment group (adjusted standard overhead) determined for
each ASC. The legislation enacted by Congress lowered this amount from $200 to $150.

One out of every 3 (32 percent) cataract procedures with IOL implant was performed in
an ASC. This equates to 360,000 of the 1.14 million procedures performed in 1991. The
change enacted by Congress will lower the amount Medicare allows for IOL acquisition
costs by $50 per procedure and produce savings of over $18 million per year (360,000
procedures x $50). Over 5 years these savings will amount to more than $90M.
Calculations may vary slightly due to rounding.


-9’        Savings

As previously mentioned, we used the CWF to determine the average coinsurance paid
by Medicare beneficiaries to ASCS. The change in the amount recognized for an IOL
will have a direct impact on the amount of coinsurance that will be paid by beneficiaries
electing to have their cataract surgery with IOL implant performed in an ASC.
Beneficiary coinsurance liability will decrease by $10 for each cataract procedure with
IOL insertion performed at an ASC. Overall, the 360,000 beneficiaries who use ASCS
each year will save a more than $3.6 million annually (360,000x $10).


M’&are   Rngmm Savihgs Rvm Changes to OPD Payments

Using the billing information provided by the OPDS our sample, we determined
approximately how much Medicare might have paid each of them for the claim they
submitted on our sampled beneficiary. To do this we determined how much Medicare
would have paid each OPD using cost reimbursement, the blended rate and actual
charge. The lowest payment amount was then used in all calculations.

Our first calculation established the likely Medicare payment if the OPD in our sample
had been paid using cost reimbursement.      To arrive at a Medicare payment amount
based on cost, we used an average cost to charge ratio of 50 percent. The 50 percent
figure was taken from a HCFA draft report concerning outpatient services.




                                           A-6

For each OPD in our sample we took 50 percent of the total charges indicated on the
bill (UB820r other) submitted to Medicare for payment. From this amount (total billed
charges x 0.50) we subtracted the actual amount of coinsurance the patient was required
to pay (20 percent of the total charges shown on the bill). This gave us the approximate
Medicare payment if the claim was paid using cost reimbursement.




Our second calculation established Medicare’s payment to each OPD in the sample using
the blended rate. To establish a potential Medicare payment amount using the blended
rate it was necessary for us to determine the ASC and OPD portion of the blend.

The ASC portion of the blend was determined using data from the CWF. The average
ASC payment rate for 1991 ($975) was adjusted to reflect the average coinsurance ($195)
paid by beneficiaries. This gave us the average net amount paid by Medicare to ASCS or
$780 ($975 - 195). The net amount paid to ASCS was then adjusted by 58 percent to
arrive at the ASC portion of the blend ($780x 0.58 or $452.40).

The OPD portion of the blended rate was determined by taking 42 percent of the cost
determined under the cost reimbursement method described above.




                                          A-7

The Medicare payment amount determined from each method (cost reimbursement and
blended rate) described above was compared to actual amount billed. The lowest of the
three numbers was established as Medicare’s likely payment amount for each OPD in our
sample.

Savings from the change in IOL reimbursement were derived by changing the blend
calculation to reflect the lower ASC portion resulting from legislative change. This new
blended rate was compared to the lowest rate established in the above calculations. If
the new blended rate was lower than the previously established payment rate, savings
would accrue to the Medicare program.

We calculated that the ASC portion of the blend would decline from $452.40 to $429.20.
Using the lower ASC portion of the blend we recalculated the blended rates for each
OPD in the sample. The revised blended rates were compared to the lowest payment we
calculated for the OPD bill submitted to Medicare in 1991. When the revised blended
rate was lower than the amount paid in 1991 savings would accrue to the Medicare
program. We added up these individual OPD savings and determined $12.90 to be the
average savings per OPD procedure.

Of the 1.14 million cataract procedures with IOL implant, approximately 66 percent, or
752,000 procedures, were performed in OPDS. Savings of $12.90 per procedure are
projected to yield savings of $9.7 million annually or $48.5 million over 5 years.




                                          A-8

     APPENDIX                 B




               Comments
                   of
The Health Care Financing Administration




                   B-1
         ** ..,,*, ,,  ,,
                                                                                                Health   Care
        �
        4
                            DEPARTMENTOF HEALTH
    Jg
                                                       & HUMAN SERVICES

    %
    .                                                                                           Financing   Admmls~ration
:

:
:




    7   ‘.,
              %v,m
                                                                                                Memorandum
                Date        #w?29@
                From        Bmce C. VladO           /. /.&(
                            Administrator \                       \
                                                b
                Subject
                            Office of Inspector General (OIG) Draft Report   “Intraocular   Lens (IOL) Implant
                            Acquisition Costs,” (OEI-05-92-01030)
                To
                            June Gibbs Brown
                            Inspector General


                            We reviewed the subject draft report which examines IOL acquisition costs.

                            HCFA concurs with Option 1 presented in the report. A provision included in the
                            Omnibus Budget Reconciliation Act of 1993 reduces the IOL payment rate for
                            ambulatory surgicai centers to $150. Our detailed comments are attached for your
                            consideration.

                            Thank you for the opportunity to review and comment on this report Please advise
                            us if you would like to discuss our position on the report recommendation at your
                            earliest convenience.

                            Attachment




                                                                   B-2
               Comments of the Health Care Financine Administration (HCFA\
                  on the Ot’fice of [nspector General (OIG’) Draft Report:
                    “Intraocular Lens (IOLS) [mdant Acquisition Costs,”
                                      (OEI-O5-42-O1O3O)


OIG Recommendation

HCFA should establish a fixed payment level for cataract surgexy petiormed in hospital
outpatient departments (OPDS) that would bring Medicare reimbursement      to OPDS
more in line with ambulatory surgical centers (ASCS) payments.

[f this is not achievable, we suggest HCFA consider our options for addressing lens
acquisition costs.

           Option 1-   Reduce the S200 freed IOL payment, without changing cufie~t
                       policies for determining payment.

           Oution 2-   ~-    Establish a fMed program payment for IOLS and a f~ed
                             beneficia~ copayment for each IOL Payment for 10Ls at
                             $ 1~, and beneficiary copayment at 1991 levels: $40 for
                             &s     and$116 for OPDS.

                       ~-    Establish a fued program payment for IOLS and a fixed
                             beneficiary copayment for [Ok Payment for IOLS at $ 1S0,
                             and beneficiary copayment set at $92 for both ASCS and
                             OPDS.

                       ~-    Establish a fixed program payment for IOLS and a fixed
                             beneficiary copayment for IOLS, with beneficiary copayment
                             set at 20 percent of the payment rate for both ASCS and
                             OPDS.

HCFA Resrmnse


HCFA concurs with option 1 and has taken action. We have already received legislation

through the Omnibus Budget Reconciliation Act (OBRA) of 1993, signed on

August 10, 1993, to reduce the IOL payment rate for ASCS to $150 for the period

January 1, 1994, through December 31, 1998. We suggest that in the final report this

option include a more detailed description of what implementation would accomplish.

For example, in addition to the direct savings realized in ASCS, there will be some

indirect savings in OPDS as the payment level used in the blended payment amount

would also decrease. (The blended payment amount includes 58 percent of the ASC

rate. )




                                            B-3

Page 3

Each segment of option 2 represents a piecemeal approach to payment and coinsurance
reform, and each contains inherent problems, both in the calculation of savings and in
implementation.    Options 2A and 2B would increase the beneficiary share of total
payment for IOIA in ASCS from 20 percent to 27 percent and 61 Percenk respectively.
ln addition, although option 2B decreases the coinsurance paid in OPDS for IOLS by
$18 million, at the same time it increases actual beneficiary payments by the same
amount in ASCS.
                                                                   --”-”
The report shows option 2C as saving the program %2+miiKon”~ IOL rates were set at
$150. We believe that this option would actual!y prove a cast to the program, as
beneficiary coinsurance for the IOL would decrease more than would the total payment.

A technical appendix to the report would be indispensable. This should describe the
sampling methodology in greater detail than presented in the reporg clarifying ~uch
questions as how sumey information was “merged with information obtained tiom the
Food and Drug Administration” and the relationship between 10L costs and procedure
costs.

It is not clear how OIG derived their program savings in OPD payments. There are
discrepancies between the OIG’S estimates and our own estimates which suggest a
systematic difference in the way these figures are calculated. Based on information
contained in the report, it appears to us that the program savings are greatly overstated.
We suggest that all savings calculation be presented in detail, either at relevant places in
the text or as part of a technical appendix.

Refer to the attached markup of the draft report for other suggested changes.




                                           B-5

Page 2

In addition to supporting the reduction in Medicare IOL allowance to the $150 level in
ASCS, we also support an amendment to the statute and regulations that would apply
that level to IOL payments made to physicians who perform cataract surgery in their
office. Although these changes could possibly be made through ordinary notice and
comment procedures, we believe that legis~ation would more expediently achieve these
ends.

Regarding the report’s prima~ recommendation, 0BIL4 of 1986 requires HCFA to
develop a prospective payment approach for hospital outpatient senkes. Toward this
en~ the Office of Research and Demonstrations is funding a study to assist in
implementing such an approach. The study will produce a national data base of
outpatient facility resource costs that can be used as input to formulate an outpatient
prospective paynent system. The study wiil cover 400 procedures including the resource
use and costs for cataract removal and IOL implants in both the hospital OpD-aBd the
ASC setting.

The study is not complete at this time. The final report is expected to be completed in
early 1994. Upon completion, it is expected that data from over 70 OPDS and ASCS will
have been analyzed, comprising an estimated 2S,000 cataract procedures. The
prelimina~ data indicate that the average cost of the IOLa is below $200 (in the range
of $175), although some were purchased at a cost of over $400. The method for
calculating the cost for the IOLs will be expanded beyond the existing methodology,
which determines an average cost across all sitq to also include a weighted analysis of
the number and range of costs for IOU purchased at each site.

General Comments

Descriptions of OPD payment in the Background sections of the Executive Summary
and Introduction are not completely accurate. Twenty percent of the ASC rate is netted
out in the ASC portion of the blen& rather than actual coinsurance.

We suggest that the term “blended payment amount” be used instead of “blended rate”
as “rate” implies an amount determined in advance based on a blended payment
methodology.

The primaxy recommendation in the repo~     i.e., establish a fixed rate for OPDS
approximating ASC payment levels does not flow from the findings in the report.

The first option does not specifically address coinsurance; however, the report does
indicate that beneficiaries would save $1.7 billion from this recommendation. What
generates these savings? Who pays the $1.7 billion if not Medicare?
